            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

     FISCAL YEAR 2011 EVALUATION OF
  THE SOCIAL SECURITY ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION
    SECURITY MANAGEMENT ACT OF 2002


      November 2011   A-14-11-01134




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      November 14, 2011                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fiscal Year 2011 Evaluation of the Social Security Administration’s Compliance with the
           Federal Information Security Management Act of 2002 (A-14-11-01134)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall security program and practices complied with the requirements of the Federal
           Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2011. 1

           BACKGROUND
           FISMA provides the framework for securing the Government’s information and
           information systems. All agencies must implement the requirements of FISMA and
           report annually to the Office of Management and Budget (OMB), Department of
           Homeland Security (DHS), and Congress on the adequacy and effectiveness of their
           security programs. FISMA requires that each agency develop, document, and
           implement an agency-wide information security program. 2 OMB and DHS use
           information reported pursuant to FISMA to evaluate agency-specific and Government-
           wide security performance and develop the annual security report to Congress.

           In July 2010, DHS began exercising primary responsibility within the executive branch
           for the operational aspects of Federal cybersecurity with respect to the Federal
           information systems (IS) that fall within FISMA under 44 U.S.C. § 3543. 3 DHS is
           subject to general OMB oversight in accordance with 44 U.S.C. § 3543(a) and is subject
           to the limitations and requirements that apply to OMB under 44 U.S.C. § 3543(b)-(c). 4

           1
               Pub. L. No. 107-347, Title III, Section 301.
           2
               Pub. L. No. 107-347, Title III, Section 301 § 3544(b), 44 U.S.C. § 3544(b).
           3
            OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive
           Office of the President and the Department of Homeland Security, July 6, 2010.
           4
               Id.
Page 2 - The Commissioner


On September 14, 2011, OMB issued its FY 2011 FISMA reporting guidance, 5 which
incorporated DHS’ August 24, 2011 Federal Information Security Memorandum (FISM)
11-02, FY 2011 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management. FISM 11-02 provided FY 2011 FISMA reporting
instructions to Federal Chief Information Officers, Inspectors General (IG), and Senior
Agency Officials for Privacy. DHS continues to require that Chief Information Officers,
IGs, and Senior Agency Officials for Privacy use a Web platform, CyberScope, to
submit FISMA reports and data.

We evaluated SSA’s information security program to determine whether the Agency
established and maintained key information security programs and practices as
identified by DHS. 6 DHS’ 11 key FISMA programs and metrics and our responses are
in Appendix B. Also, see Appendix C for additional background.

SCOPE AND METHODOLOGY
FISMA directs each agency’s IG or an independent external auditor, as determined by
the agency’s IG, to perform an annual, independent evaluation of the effectiveness of
the agency’s information security program and practices. 7 SSA’s Office of the Inspector
General (OIG) contracted with Grant Thornton LLP (GT) to audit SSA’s FY 2011
financial statements.8 Because of the extensive internal control system review that is
completed as part of that work, our FISMA requirements were incorporated into GT’s
financial statement information technology-related work. This evaluation included the
Federal Information System Controls Audit Manual level reviews of SSA’s financial-
related information systems. GT also performed an “agreed-upon procedures”
engagement using FISMA, OMB, DHS, National Institute of Standards and Technology
(NIST) guidance, Federal Information System Controls Audit Manual, and other relevant
security laws and regulations as a framework to provide information and documentation
for the required OIG review of SSA’s information security program, practices, and
information systems.

This report informs Congress and the public about SSA’s security performance and
fulfills the OMB requirement under FISMA to submit an annual report to Congress. It
provides an assessment of SSA’s information security strengths and weaknesses and a
plan of action to improve performance. See Appendix D for more details on our scope
and methodology.


5
 OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, September 14, 2011.
6
 DHS, FY 2011 Inspector General Federal Information Security Management Act Reporting, Version 1.0,
June 1, 2011.
7
    Pub. L. No. 107-347, Title III, Section 301, 44 U.S.C. § 3545(b)(1).
8
 OIG Contract Number GS-23F-8196H, December 3, 2009. The FY 2011 option was exercised in
December 2010.
Page 3 - The Commissioner


SUMMARY OF RESULTS
OIG and GT’s work determined that SSA’s security programs and practices were
generally consistent with FISMA requirements for FY 2011; 9 however, there were some
areas that needed improvement. SSA continues to work toward maintaining a secure
environment for its information and systems. For example, SSA continues to have
generally consistent processes in a number of areas, including risk management,
vulnerability remediation, security training, remote access, continuous monitoring (CM),
security capital planning, and account and identity management. Our responses to the
FY 2011 DHS IG metrics are in Appendix B. We used these metrics to evaluate SSA’s
compliance with FISMA for FY 2011.

Although the Agency continues to protect its information and systems, the FY 2011
financial statement audit again identified a significant deficiency for financial statement
reporting. It should be noted that a financial statement significant deficiency in internal
control10 does not necessarily rise to the level of a significant deficiency as defined in
FISMA. 11 The FY 2011 financial statement audit significant deficiency does not rise to
the level of a significant deficiency under FISMA because of other compensating
controls the Agency has in place, such as intrusion detection systems, guards, closed
circuit televisions, automated systems checks, configuration management, and firewalls.




9
    See Appendix B.
10
  The definition of a significant deficiency for financial statement internal control is provided by the
Statement on Auditing Standards Number 115, Communicating Internal Control-Related Matters
Identified in an Audit. This Statement on Auditing Standards states a significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the entity's financial statements will not be
prevented or detected and corrected on a timely basis.
11
   DHS provided the definition of a significant deficiency under FISMA in FISM 11-02. The Frequently
Asked Questions section, p. 8. defines a significant deficiency as a weakness in an agency’s overall
information systems security program or management control structure, or within one or more information
systems that significantly restricts the capability of the agency to carry out its mission or compromises the
security of its information, information systems, personnel, or other resources, operations, or assets. In
this context, the risk is great enough that the agency head and outside agencies must be notified and
immediate or near-immediate corrective action must be taken.
Page 4 - The Commissioner


Although we concluded that SSA’s security programs were generally consistent with
FY 2011 FISMA requirements, our review found areas where SSA can improve the
security over its systems and protection of sensitive information. SSA should ensure

•     continued improvements in change and access control processes;
•     continued improvements in its risk management process;
•     proper incident handling and reporting;
•     protection of personally identifiable information (PII); 12
•     contractors receive security awareness and specialized training;
•     continued implementation of its CM strategy; and
•     contractor system oversight.

CONTINUED IMPROVEMENTS IN CHANGE AND ACCESS CONTROL PROCESSES

OMB Circular A-123 Significant Deficiency

Controlling and limiting systems access to the Agency’s information systems and
resources is the first line of defense in ensuring the confidentiality, integrity, and
availability of the Agency’s information resources. 13 Lack of adequate access controls
compromises the completeness, accuracy, and validity of the information in the system.

In FY 2009, our audit of SSA’s financial statements identified a significant deficiency14 in
the Agency’s control of access to its sensitive information. 15 In FYs 2010 and 2011,
GT’s audit of SSA’s financial statements continued to identify a significant deficiency in
the Agency’s change control management and access to sensitive information. 16
Specifically, GT’s FY 2011 testing disclosed that SSA developed policies and
procedures for periodically reassessing the content of security access profiles but has
not implemented them consistently Agencywide. In addition, SSA provided some
employees and contractors more security permissions than required to complete their
job responsibilities. Furthermore, GT found that some of the Agency’s software
12
   OMB, M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, p. 1, July 2006, defines PII as any
information about an individual maintained by an agency, including, but not limited to, education, financial
transactions, medical history, and criminal or employment history and information that can be used to
distinguish or trace an individual's identity, such as their name, Social Security number, date and place of
birth, mother's maiden name, biometric records, etc., including any other personal information that is
linked or linkable to an individual.
13
     SSA, Information Systems Security Handbook, Section 2.1.
14
     See Footnote 10.
15
     SSA OIG, Independent Auditor’s Report on SSA’s FY 2009 Financial Statements, November 9, 2009.
16
 GT, Independent Auditor’s Report on SSA’s FY 2010 Financial Statements, November 8, 2010 and
GT, Independent Auditor’s Report on SSA’s FY 2011 Financial Statements, November 7, 2011.
Page 5 - The Commissioner


configurations increased the risk of unauthorized access to SSA’s key financial data and
programs.17

GT recommended that SSA management implement (1) policies and procedures that
require a periodic review of the content of all security profiles,18 (2) controls to test and
monitor configurations on the mainframe and network operating system environments,
and (3) procedures that require ongoing monitoring of implemented configurations to
identify and address security risks. 19

In FY 2011, SSA issued two policies 20 and assembled a workgroup to address the
access control weaknesses identified in prior years. The workgroup is testing a
commercial tool to manage SSA employee and contractor access. The Agency stated
that it is finalizing the profile reviewing procedures. In addition, the new tool, when
implemented, will automate the process SSA uses to review its security profiles. SSA
plans to implement the tool in the second quarter of FY 2012 to resolve some of its
access control weaknesses.

CONTINUED IMPROVEMENTS IN ITS RISK MANAGEMENT PROCESS

We found SSA’s risk management 21 program was generally consistent with FY 2011
FISMA requirements.22 NIST guidance indicates that the Risk Management Framework
steps include, among other things, categorizing an agency’s IS and the information
processed, stored, and transmitted by that IS; selecting and implementing proper IS
security controls; and assessing the effectiveness of these controls. 23 Once IS controls



17
     GT, Independent Auditor’s Report on SSA’s FY 2011 Financial Statements, November 7, 2011.
18
  A profile is one of SSA’s primary access control mechanisms. Each profile contains a unique mix of
facilities and transactions that determines what access to systems resources that specific position needs.
19
     See Footnote 17.
20
  SSA, Security Profile Administration Processes Final Mainframe Administration Standards, May 10,
2011, and SSA, Security Profile Administration Processes Profile Naming Conventions, October 28,
2010.
21
  NIST Special Publication (SP) 800-37, Revision 1, Guide for Applying the Risk Management
Framework to Federal Information Systems, Appendix B, February 2010 p. B-8, defines risk management
as “The process of managing risks to organizational operations (including mission, functions, image,
reputation), organizational assets, individuals, other organizations, and the Nation, resulting from the
operation of an information system, and includes: (i) the conduct of a risk assessment; (ii) the
implementation of a risk mitigation strategy; and (iii) employment of techniques and procedures for the
continuous monitoring of the security state of the information system.”
22
     See Appendix B, Section 1.
23
     NIST SP 800-37, Revision 1, supra at pp. 7 and 8.
Page 6 - The Commissioner


are selected and tested, the IS undergoes a security authorization process to obtain an
approval to operate. 24

We determined SSA had conducted security authorizations 25 for its 21 major systems
and applications 26 in the past 3 years. Further, we reviewed four of the six major
systems or applications that underwent a security authorization in FY 2011 and found
the process was generally consistent with OMB and NIST guidance. DHS guidance
provides that the security authorization process formally authorizes a system to operate
and provides a systematic approach for assessing security controls to determine their
overall effectiveness. 27 However, SSA stated that because of budget cuts, it did not
update the System Security Plans (SSP) 28 for two major systems, FALCON Data Entry
System and Security Unified Measurement System, or perform annual security control
testing for these two systems, as required by FISMA. 29

The FALCON Data Entry System is used in SSA’s processing centers to correct or
update mass amounts of SSA benefit payment data by manual data entries. Security
Unified Measurement System provides SSA managers and analysts information
required to meet strategic business needs, support process reviews and support
compliance with government standards for cost accountability. Because the SSPs were
not updated and the annual security controls were not tested, the Agency cannot ensure
(1) the two SSPs continue to reflect the correct security information about the system
and (2) key security controls continue to operate effectively and efficiently to protect the
confidentiality, integrity, and availability of the data contained in these systems.

FY 2011 FISMA guidance states, “. . . Rather than enforcing a static, three-year
reauthorization process, agencies are expected to conduct ongoing authorizations of
information systems through the implementation of CM programs.”30 FISMA guidance

24
     Id.
25
   NIST SP 800-37, Revision 1, supra at pp. B-1 and B-8, defines the security authorization as “The
official management decision given by a senior organizational official to authorize operation of an
information system and to explicitly accept the risk to organizational operations (including mission,
functions, image, or reputation),organizational assets, individuals, other organizations, and the Nation
based on the implementation of an agreed-upon set of security controls.”
26
     See Appendix E for a list and definitions of the 21 major systems and applications.
27
     DHS FISM 11-02, supra, Frequently Asked Questions, Question 25, at p. 10.

28
  NIST SP 800-18, Revision 1, Guide for Developing Security Plans for Federal Information Systems,
February 2006, p. 39, defines System Security Plan as a “Formal document that provides an overview of
the security requirements for the information system and describes the security controls in place or
planned for meeting those requirements.”

29
     Pub. L. No. 107-347, Title III, Section 301 § 3544(b)(5), 44 U.S.C. § 3544(b)(5).
30
     DHS FISM 11-02, supra, Frequently Asked Questions, Question 28, p. 10.
Page 7 - The Commissioner


also states, “Agency officials should monitor the security state of their information
systems on an ongoing basis with a frequency sufficient to make ongoing risk-based
decisions on whether to continue to operate the systems within their organizations.” 31
Finally, FISMA guidance indicates that a CM program will help make the security
authorization process more dynamic and responsive to today’s Federal missions and
rapidly changing conditions. 32

We found SSA was transitioning to this new dynamic process. As of September 2011,
SSA had issued its CM strategy to establish, implement, and maintain a more robust
and near real-time program (see additional information in the section related to CM). In
the future, we will assess how SSA integrates its CM program with its security
authorization program.

PROPER INCIDENT HANDLING AND REPORTING

SSA’s Incident Handling and Reporting program was generally consistent with FY 2011
FISMA requirements.33 SSA implemented an automated PII Loss Reporting tool34 to
ensure compliance with Federal requirements and address our prior year finding related
to SSA’s PII incident reporting timeframe. 35 Additionally, we found SSA reported
100 percent of the PII incidents included in our FY 2011 sample to the United States
Computer Emergency Readiness Team (US-CERT) within 1 hour. 36 However, our
review identified the following weaknesses.

•     We did not receive any reports of PII incidents for FY 2011.
•     SSA policy did not establish a law enforcement reporting timeframe.

FISMA requires that agencies notify and consult law enforcement agencies and their
OIGs regarding security incidents, as appropriate. 37 FISMA did not define what security
31
     DHS FISM 11-02, supra, Frequently Asked Questions, Question 28, p. 11.
32
     DHS FISM 11-02, supra, Frequently Asked Questions, Question 32, p. 12.
33
     See Appendix B, Section 3.
34
  In FY 2010, the Office of the Chief Information Officer implemented an automated PII Loss Reporting
tool to enable SSA to report a higher percentage of PII incidents to US-CERT within 1 hour.
35
   OMB guidance requires that agencies report to US-CERT within 1 hour of discovery/detection any
unauthorized access to PII or any incident involving PII when (1) an individual gains logical or physical
access without permission to a federal agency network, system, application, data, or other resource; or
(2) there is a suspected or confirmed breach of PII regardless of the manner in which it might have
occurred. OMB, M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information, May 22, 2007, p. 10.
36
  In FY 2010, according to a sample we tested, SSA reported 80 percent of PII incidents to US-CERT
within 1 hour.
37
     Pub. L. No. 107-347, Title III, Section 301 § 3544(b)(7)(C)(i), 44 U.S.C. § 3544(b)(7)(C)(i).
Page 8 - The Commissioner


incidents are appropriate to be reported to law enforcement or the OIG. Instead,
Federal guidance38 advises agencies to discuss with various law enforcement
representatives conditions under which incidents should be reported to law enforcement
and OIG, how the incidents should be reported, what evidence should be collected, and
how the evidence should be collected.

In FYs 2009 and 2010, we reported SSA did not report any PII-related incidents to the
OIG. We also found SSA’s policy and procedures did not provide guidance on what
type of security incidents and in what timeframe these incidents must be reported to law
enforcement and the OIG. We identified the same conditions in FY 2011. Although
specific guidance had not been developed, we believe, at a minimum, all security
incidents SSA deemed appropriate to be reported to law enforcement should have been
reported to us.

To resolve this issue, the Agency is working with the OIG’s Office of Technology and
Resource Management to establish guidance for reporting specific security-related
incidents, including PII. Additionally, the Agency developed its PII Loss Reporting Tool
to automatically notify the OIG’s Office of Technology and Resource Management of PII
incidents. However, the OIG did not receive any reports of PII incidents in FY 2011
because of an incorrect email address incorporated into SSA’s PII Loss Reporting Tool.

Because SSA did not refer any incidents to OIG for investigation, we could not conduct
any additional investigation, if needed. As a result, we could not conclude that SSA
timely resolved these incidents to minimize future damage. 39 We continue to
recommend SSA:

1. Work with the OIG to establish policy and procedures on what types of PII incidents
   should be reported to law enforcement and the OIG and in what timeframes.
2. Revise its policy, guidance, procedures, and timeframes for reporting of PII incidents
   to law enforcement, including the OIG.

PROTECTION OF PII

The Privacy Act of 1974 40 requires that Federal agencies safeguard PII. In addition,
FISMA requires that agencies protect their information from unauthorized disclosure 41


38
   NIST SP 800-61, Revision 1, Computer Security Incident Handling Guide, Section 2.3.4.2, March 2008,
p. 2-6.
39
     See Appendix B, 3.a(5).
40
     Pub. L. No. 93-579, as amended, § 552a(e)(10), 5 U.S.C. § 552a(e)(10).
41
  FISMA requires that agencies protect information collected or maintained by, or on behalf of, agencies
commensurate with the risk and magnitude of harm from unauthorized access, use, disclosure,
disruption, modification or destruction. Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A)(i),
44 U.S.C. § 3544(a)(1)(A)(i).
Page 9 - The Commissioner


and OMB has issued several memorandums on how agencies should safeguard PII. 42
Although SSA has established policies and procedures for PII protection, we noted an
opportunity for improvement.

We performed a follow-up audit that identified a breach of PII from the Agency’s
publication of its Death Master File (DMF). 43 We found that SSA continued publishing
the DMF with knowledge that the DMF contents included PII of living individuals. SSA
stated it could not limit the information included in the DMF version sold to the public to
the absolute minimum required because deceased individuals do not have privacy
interests. The Agency also stated that the number of DMF errors was small relative to
the number of death transactions, and that SSA had no evidence of Social Security
number misuse related to these DMF errors. Further, SSA implemented procedures to
report erroneous death entry-related PII breaches to US-CERT each week. However,
we remain concerned about the potential for harm to the living individuals whose PII is,
and will be, published in the DMF.

SSA stated that it holds sensitive information about hundreds of millions of people in its
records. SSA further stated while it takes even a small error rate very seriously,
focusing on the DMF belies the Agency’s success in protecting the privacy of sensitive
information contained in its records.

CONTRACTORS RECEIVE SECURITY AWARENESS AND SPECIALIZED
TRAINING

SSA’s security training program was generally consistent with FY 2011 FISMA
requirements. 44 SSA made some improvements in its security training program. SSA
developed additional role-based training guidance for personnel with significant security
responsibilities in FY 2011. Additionally, the Agency required that its employees
complete their FY 2011 annual security awareness training through an automated
interactive program. Moreover, in FY 2012, the Office of Information Security (OIS) is
strengthening its training program by creating and delivering managerial and executive
information security training in FY 2012.

However, we found the Agency did not require that contractors complete annual
security awareness training through this interactive program. The Agency plans to

42
   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information, May 22, 2006; M-06-16,
Protection of Sensitive Agency Information, June 23, 2006; M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, May 22, 2007; and M-06-19, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments, July 12, 2006.
43
 SSA OIG, Follow-up: Personally Identifiable Information Made Available to the Public Via the Death
Master File (A-06-10-20173), March 2011. SSA maintains a record of reported deaths known as the
DMF, which is provided to public and private customers.
44
     See Appendix B, Section 4.
Page 10 - The Commissioner


require that contractors use this automated program next FY. Although the Agency’s
security training program is generally consistent with FY 2011 FISMA requirements, we
identified some weaknesses related to security training for SSA’s contractors.

•     SSA did not ensure all contractor personnel received and completed annual security
      awareness training. 45
•     SSA did not maintain a comprehensive list of all contractors with significant security
      responsibilities; as a result, SSA could not ensure all such contractors received
      appropriate specialized training. 46

SSA policy requires that contractor personnel annually sign a Personnel Security
Certification form to certify completion and comprehension of the Agency’s security
awareness training requirements.47 We requested the Personnel Security Certification
forms for a sample of 30 contractors. SSA provided 11 forms. For the other 19, the
Agency had 11 contractors sign and date the form after our request but did not provide
the other 8 forms. We also found that SSA did not define a timeframe for each
contractor to complete the certification form.

As a result, contractors may have access to systems and data without proper security
training and certification. In addition, we do not believe the contractor’s signature on the
certification form is an effective control for ensuring the contractor took the appropriate
security awareness training, because the contractor could sign the form without taking
the training.




45
   FISMA requires each agency head to ensure that that the agency has trained personnel sufficient to
assist the agency in complying with the requirements of this subchapter [44 USCS §§ 3541 et seq.] and
related policies, procedures, standards, and guidelines. It also requires agencies to have an agency-wide
information security program that includes security awareness training to inform personnel, including
contractors and other users of information systems that support the operations and assets of the agency,
of--
     (A) information security risks associated with their activities; and
     (B) their responsibilities in complying with agency policies and procedures designed to reduce these
risks. Pub. L. No. 107-347, Title III, Section 301(b) §§ 3544(a)(4) and (b)(4), 44 U.S.C. §§ 3544(a)(4) and
(b)(4). In addition, NIST SP 800-50, Building an Information Technology Security Awareness and Training
Program, October 2003, Footnote 13, p. 20, states “[a]t a minimum, the entire workforce should be
exposed to awareness material annually.”
46
  FISMA requires that the agency Chief Information Officer ensure compliance with FISMA requirements,
including training and overseeing personnel with significant responsibilities for information security with
respect to such responsibilities. Pub. L. No. 107-347, Title III, Section 301(b) § 3544(a)(3)(D), 44 U.S.C.
§ 3544(a)(3)(D).
47
     SSA, Information Systems Security Handbook, Appendix B, Roles and Responsibilities.
Page 11 - The Commissioner

Further, we could not determine whether SSA’s contractors with significant information
security responsibilities 48 received specialized training or whether such training
contained appropriate content based on organizational roles. We requested, but were
unable to obtain, a comprehensive list of contractors with significant information security
responsibilities. SSA staff stated that the Agency does not have sufficient guidance on
categorizing contractors with significant information security responsibilities. Moreover,
SSA staff stated that each component subjectively categorized contractors with
significant information security responsibilities. As a result, SSA could not provide a
comprehensive list that included all contractors with significant information security
responsibilities and SSA does not know whether all such contractors received
appropriate specialized training.

We recommend SSA establish a timeframe for contractor personnel to complete
security awareness training. Furthermore, the Agency should ensure all contractor
personnel complete security awareness training before gaining access to Agency
systems. In addition, we recommend the Agency provide additional guidance to assist
SSA components to identify contractors with significant information security
responsibilities and ensure these contractors received specialized training.




48
   SSA defined its employees and contractors with significant security responsibilities as Level 3
personnel. Level 3 personnel are “Employees with high levels of access to sensitive data who could
affect agency-wide operations and/or who perform security, investigative, or auditing activities on a
frequent basis. Personnel in these roles have significant access to sensitive information, such as social
security records, medical records, business confidential documents, and other personally identifiable
information, which needs to be protected against unauthorized access; fraudulent activities; and
inappropriate disclosure and modification.” SSA, Information Systems Security Handbook, Appendix H,
Security Training.
Page 12 - The Commissioner


CONTINUED IMPLEMENTATION OF ITS CM STRATEGY

SSA’s CM program was generally consistent with FY 2011 FISMA requirements.49
NIST established new guidelines for CM in August 2009. 50 The NIST control for CM
provides that the organization establishes a CM strategy and implements a CM program
that includes

•     a configuration management process for the IS and its constituent components;
•     a determination of the security impact of changes to the IS and the environment of
      operation;
•     ongoing security control assessments in accordance with the organizational CM
      strategy; and
•     reporting the security state of the IS to appropriate organizational officials. 51

SSA has documented CM policies and procedures and developed and issued its
Strategy for Information Security Program Continuous Monitoring, on
September 16, 2011 to ensure compliance with all new requirements related to CM.
The strategy is driven by the need to dynamically monitor the Agency’s security posture
and provide real-time awareness of threats, vulnerabilities, and risks. This strategy
identified gaps between the Agency’s existing CM program and existing and anticipated
requirements and provided a road map to achieve SSA’s goals.

In addition, SSA has implemented CM for most of its core information processing
environment. 52 While SSA generally had a consistent CM program and process, we
determined there were opportunities for improvement in the Agency’s CM program and
process in the following areas.

49
     See Appendix B, Section 8.
50
   NIST, SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations, pp. F-36 and F-37, August 2009. This guidance also provides that: “A continuous
monitoring program allows an organization to maintain the security authorization of an information system
over time in a highly dynamic environment of operation with changing threats, vulnerabilities,
technologies, and missions/business processes. Continuous monitoring of security controls using
automated support tools facilitates near real-time risk management and promotes organizational
situational awareness with regard to the security state of the information system. The implementation of a
continuous monitoring program results in ongoing updates to the security plan, the security assessment
report, and the plan of action and milestones, the three principal documents in the security authorization
package. A rigorous and well executed continuous monitoring program significantly reduces the level of
effort required for the reauthorization of the information system. Continuous monitoring activities are
scaled in accordance with the impact level of the information system.”
51
     NIST SP 800-53, Revision 3, supra at pp. F-36 and F-37.
52
   SSA Enterprise Wide Mainframe & Distributed Network Telecommunications Services System
(EWANS) System Security Plan (SSP), Section 1.10, defines core information processing environment as
a combination of mainframe processors, UNIX computers, Microsoft Windows servers and desktops for
its core information processing, p. 4, September 28, 2011.
Page 13 - The Commissioner



•     SSA had not implemented a CM process for some of its servers in FY 2011 because
      it finalized the configuration guide for these servers in September 2011.
•     Some of SSA’s CM data were not readily accessible to the Chief Information
      Security Officer (CISO). 53 For example, the reportable data for SSA’s configuration
      and vulnerability management tools for mainframe and some network assets is not
      readily accessible to the CISO.

Moreover, in SSA’s FY 2009 Financial Statement Audit, GT identified that SSA did not
have a formal process to detect and remove unauthorized software from all of its
workstations. Our prior evaluation identified a similar finding. 54 This issue continues to
exist in FY 2011. The above weaknesses may negatively impact SSA’s ability to
correctly measure and timely remediate security vulnerabilities. For example, GT‘s
internal penetration testing 55 performed during its audit of SSA’s FY 2011 financial
statements identified some security weaknesses. We communicated the details of
these weaknesses to the Agency. SSA is implementing CM tools for some of these
weaknesses. However, these security weaknesses may have been discovered had the
Agency implemented additional CM process for some of its applications and servers
sooner. Further, the limited accessibility of CM data provided to SSA’s CISO may
impact his effectiveness to oversee the Agency’s security program.

In addition, although NIST guidance promotes the concept of near real-time risk
management, 56 SSA has limited real-time automated monitoring and reporting capacity.
As indicated in SSA’s CM strategy, the absence of automated tools makes security
metrics difficult to generate and labor intensive, and there are increased opportunities
for human error. Adopting automated tools that consolidate CM information will reduce
the burden of collecting data, increase the quality of data, and promote near real-time
CM.



53
   OMB guidance states that “[a]gencies need to be able to continuously monitor security-related
information from across the enterprise in a manageable and actionable way. Chief Information Officers
(CIOs), Chief Information Security Officers (CISOs), and other Agency management all need to have
different levels of this information presented to them in ways that enable timely decision making.” OMB
Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, p. 1, April 21, 2010.
54
  OIG reported SSA employees and contractors did not comply with the Agency’s software approval
policy. SSA OIG, The Social Security Administration’s Approval and Monitoring of the Use of Software,
(A-14-10-21082), October 2010, p.4.
55
   Penetration testing is security testing in which assessors mimic real-world attacks to identify methods
for circumventing the security features of an application, system, or network. Internal penetration testing
during SSA’s financial statement audit was performed by a tester as an "insider" without specific
information about SSA information systems environment and with access to SSA facilities.
56
     NIST SP 800-37, Revision 1, supra at p. 2 and NIST SP 800-53, Revision 3, supra at p. F-36.
Page 14 - The Commissioner


NIST guidance provides that “. . . [t]he implementation of a robust continuous monitoring
program allows an organization to understand the security state of the information
system over time and maintain the initial security authorization in a highly dynamic
environment of operation with changing threats, vulnerabilities, technologies, and
missions/business functions.” 57

We recommend SSA ensure implementation of its Strategy for Information Security
Program Continuous Monitoring to fully meet the current and anticipated Federal
requirements and address all gaps identified in the CM strategy and this report. In
addition, SSA should ensure the CISO has access to all Agency CM data.

CONTRACTOR SYSTEM OVERSIGHT

We determined SSA’s contractor system 58 oversight program was generally consistent
with FISMA requirements for FY 2011. 59 However, we identified some areas that need
improvement. We found the following weaknesses.

•     SSA’s Master System Inventory did not identify all contractor systems.
•     SSA did not ensure that all contractor systems met FISMA requirements before
      putting them into operation.
•     SSA’s contracts still did not include all FISMA requirements. 60

SSA’s FY 2011 Master System Inventory identified eight contractor systems. However,
we found this inventory did not include all contractor systems.61 These systems are a
card production system, operated by a SSA contractor; E2 Solutions, operated by the
General Services Administration; 62 and Cyber Security Assessment and Management
(CSAM), 63 operated by the Department of Justice. 64

SSA stated E2 Solutions and CSAM should be excluded from the Agency’s inventory
because (1) SSA is not responsible for the security authorization of the two systems,

57
     NIST SP 800-37, Revision 1, supra at p. 26.
58
     Contractor systems are provided or managed by another agency, contractor, or other source.
59
     See Appendix B, Section 10.
60
     OMB M-11-33, supra, Frequently Asked Questions section, Question 38, pp. 14 and 15.
61
     SSA did not include CSAM and E2 Solutions in its system inventory.
62
     E2 Solutions is the travel system adopted by SSA.
63
  CSAM is SSA’s FISMA tracking tool. CSAM enables the Agency and SSA’s C&A Managers to gather
system information and to create reports to support the FISMA assessment. SSA also uses CSAM for
managing the identified information security weaknesses.
64
     In FY 2011, OIG found the Agency excluded CSAM and E2 Solutions from the inventory.
Page 15 - The Commissioner


and (2) SSA has no “system-to-system” connection with CSAM. However, FISMA
specifically requires that each agency provide information security protections for
(i) information collected or maintained by or on behalf of the agency; and (ii) information
systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency. 65 In addition, NIST guidance defers to OMB to
provide guidance for the agency system inventory development and associated
reporting requirements. 66 DHS began exercising FISMA responsibilities on behalf of
OMB. DHS guidance requires the OIG to evaluate whether the Agency has established
a program that includes a complete inventory of systems operated by contractors or
other entities on the Agency’s behalf. 67

As a result, we believe SSA should include these systems in its Master Systems
Inventory because SSA needs to ensure it obtains sufficient assurance that security
controls of such systems are effectively implemented and comply with Federal and
Agency guidelines. 68

Moreover, for FY 2011, we found that SSA performed steps to confirm that the
Department of Justice and the General Services Administration completed the security
authorization for E2 and CSAM. However, the Agency did not perform steps to confirm
that the contractor card production system had a security authorization.

We discussed this issue with the OIS. OIS staff stated although the contractor system
is part of SSA’s Security Management Access Control System 69 (SMACS), the Agency
decided not to include the contractor system as a subsystem of SMACS because there
was no direct “system-to-system” connection between SSA and the contractor but
simply information sharing. As a result, SSA did not ensure completion of a security
authorization for this system.

We do not agree with OIS. The contractor system processes PII used to create SSA’s
Homeland Security Presidential Directive 12 70 (HSPD-12) employee and contractor

65
  Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A), 44 U.S.C. § 3544(a)(1)(A). FISMA provides
for such protections commensurate with the risk and magnitude of the harm resulting from unauthorized
access, use, disclosure, disruption, modification, or destruction of such information. Id.
66
     NIST SP 800-53, Revision 3, supra at page G-3, PM-5.
67
     DHS, FY 2011 Inspector General FISMA Reporting, Version 1.0, § 10.a(3), June 1, 2011.
68
     DHS, supra, § 10.a(2).
69
  SMACS is a major Agency application that securely gathers and stores privacy-related data for
employment and, in certain cases, clearances.
70
  HSPD-12 requires the development and implementation of a mandatory, Government-wide standard
for secure and reliable forms of identification for Federal employees and contractors. OMB M-05-24
Implementation of Homeland Security Presidential Directive (HSPD) 12-Policy for a Common
Identification Standard for Federal Employees and Contractors, August 5, 2005, p.1.
Page 16 - The Commissioner


credentials. As part of the credential creation process, SSA electronically transmits
data files 71 containing PII to the contractor for the production of the credentials. At the
end of the process, SSA receives the HSPD-12 credentials containing PII for its
employees and contractors.

In addition, the SMACS SSP describes the contractor’s services provided to SSA to
implement the Agency’s HSPD-12 program. Federal HSPD-12 guidance requires that
all systems involved in the HSPD-12 process comply with security authorization
requirements. 72 Since the contractor’s system is used to implement HSPD-12, the
system must comply with the security authorization requirements.

Further, in one of our current reviews, 73 we found SSA did not conduct a security
authorization on this contractor system or obtain sufficient assurance that appropriate
controls were implemented and working effectively to protect the PII entrusted to the
contractor. In addition, SSA did not include all FISMA security requirements in the
contract. Although we found the contractor had implemented security controls, SSA
could not require that the contractor continue maintaining these controls without the
proper contract requirements.

We reiterate our prior recommendations for SSA to include all contractor systems in its
system inventory and ensure all appropriate contracts include Federal security
requirements.

CONCLUSIONS AND RECOMMENDATIONS
Based on the results of OIG and GT’s work, we believe SSA’s information security
programs and practices were generally consistent with FISMA requirements; however,
some improvements are needed. SSA continues to work with us to identify ways of
complying with FISMA. The Agency continues developing, implementing, and operating
security controls to protect its sensitive data, assets, and operations.

In our prior FISMA reports, we identified issues related to SSA’s (1) computer security
program, (2) access controls, (3) strategic planning, (4) protection of PII, (5) vulnerability
remediation process, (6) contractor security awareness training, (7) incident reporting,
(8) security authorization process, (9) contingency planning, and (10) contractor
systems oversight. We affirm our prior recommendations in these areas and encourage
the Agency to continue to implement them.

SSA should continue strengthening its overall security program and practices and
71
  The files contain SSA employee or contractor’s first name, middle initial, last name, card expiration
date, agency affiliation, and photograph.
72
 Federal Information Processing Standards Publication 201, Personal Identity Verification of Federal
Employees and Contractors, March 2006, p. 64.
73
  SSA OIG, Contractor Security of the Social Security Administration's Homeland Security Presidential
Directive-12 Credentials (A-14-11-11106). This report has not been issued to date..
Page 17 - The Commissioner


ensure future compliance with FISMA and other information security related laws and
regulations. Therefore, we recommend SSA:

1. Establish a timeframe for contractor personnel to complete security awareness
   training and ensure all contractor personnel complete security awareness training
   before being granted access to Agency systems;
2. Provide additional guidance to assist SSA components to identify contractors with
   significant information security responsibilities and ensure these contractors
   received specialized training;
3. Ensure implementation of its Strategy for Information Security Program Continuous
   Monitoring to fully meet the current and anticipated Federal requirements and
   address all gaps identified in the strategy and this report; and
4. Ensure the CISO has access to all Agency CM data.




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Office of the Inspector General Response to Federal Information
             Security Management Act of 2002 Metrics
APPENDIX C – Background and Current Security Status
APPENDIX D – Scope and Methodology
APPENDIX E – The Social Security Administration’s Major Systems
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
CISO          Chief Information Security Officer
CM            Continuous Monitoring
CSAM          Cyber Security Assessment and Management
DHS           Department of Homeland Security
DMF           Death Master File
FISM          Federal Information Security Memorandum
FISMA         Federal Information Security Management Act of 2002
FY            Fiscal Year
GT            Grant Thornton LLP
HSPD-12       Homeland Security Presidential Directive 12
IG            Inspector General
IS            Information Systems
NIST          National Institute of Standards and Technology
OIG           Office of the Inspector General
OIS           Office of Information Security
OMB           Office of Management and Budget
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
POA&M         Plan of Action and Milestones
SMACS         Security Management Access Control System
SP            Special Publication
SSA           Social Security Administration
SSP           System Security Plan
U.S.C.        United States Code
US-CERT       United States Computer Emergency Readiness Team
                                                                         Appendix B
Office of the Inspector General Response to Federal
Information Security Management Act of 2002 Metrics
 Section 1: RISK MANAGEMENT

1.a. The Agency has established and is maintaining a risk management program that is
     consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
     Although improvement opportunities may have been identified by the OIG, the
     program includes the following attributes:

      1.a(1) Documented and centrally accessible policies and procedures for risk
             management, including descriptions of the roles and responsibilities of
             participants in this process.
             Yes
      1.a(2) Addresses risk from an organization perspective with the development of a
             comprehensive governance structure and organization-wide risk
             management strategy as described in NIST 800-37, Rev.1.
             Yes
      1.a(3) Addresses risk from a mission and business process perspective and is guided
             by the risk decisions at the organizational perspective, as described in NIST
             800-37, Rev.1.
             Yes
      1.a(4) Addresses risk from an information system perspective and is guided by the
             risk decisions at the organizational perspective and the mission and business
             perspective, as described in NIST 800-37, Rev. 1.
             Yes
      1.a(5) Categorizes information systems in accordance with government policies.
             Yes
      1.a(6) Selects an appropriately tailored set of baseline security controls.
             Yes
      1.a(7) Implements the tailored set of baseline security controls and describes how
             the controls are employed within the information system and its environment
             of operation.
             Yes
             Comments: Due to budget cuts, the Social Security Administration (SSA)
             stated that it did not update the System Security Plans for two of its general
             support systems and did not perform annual security tests on them.

                                           B-1
      1.a(8) Assesses the security controls using appropriate assessment procedures to
             determine the extent to which the controls are implemented correctly,
             operating as intended, and producing the desired outcome with respect to
             meeting the security requirements for the system.
             Yes
      1.a(9) Authorizes information system operation based on a determination of the
             risk to organizational operations and assets, individuals, other organizations,
             and the Nation resulting from the operation of the information system and
             the decision that this risk is acceptable.
             Yes
     1.a(10) Ensures information security controls are monitored on an ongoing basis
             including assessing control effectiveness, documenting changes to the system
             or its environment of operation, conducting security impact analyses of the
             associated changes, and reporting the security state of the system to
             designated organizational officials.
             Yes
     1.a(11) Information system specific risks (tactical), mission/business specific risks
             and organizational level (strategic) risks are communicated to appropriate
             levels of the organization.
             Yes
     1.a(12) Senior Officials are briefed on threat activity on a regular basis by
             appropriate personnel. (e.g., CISO).
              Yes
     1.a(13) Prescribes the active involvement of information system owners and common
             control providers, chief information officers, senior information security
             officers, authorizing officials, and other roles as applicable in the ongoing
             management of information system-related security risks.
              Yes
     1.a(14) Security authorization package contains system security plan, security
             assessment report, and POA&M in accordance with government policies.
              Yes

 Section 2: CONFIGURATION MANAGEMENT


2.a. The Agency has established and is maintaining a security configuration management
     program that is consistent with FISMA requirements, OMB policy, and applicable
     NIST guidelines. Although improvement opportunities may have been identified by the
     OIG, the program includes the following attributes:
      2.a(1) Documented policies and procedures for configuration management.
             Yes

                                           B-2
      2.a(2) Standard baseline configurations defined.
             Yes
             Comments: The Agency has established baseline configurations for most,
             but not all environments. SSA does not have configuration baselines for two
             systems.
      2.a(3) Assessing for compliance with baseline configurations.
             Yes
             Comments: We identified some weaknesses with SSA’s monitoring of
             configuration settings.
      2.a(4) Process for timely, as specified in Agency policy or standards, remediation of
             scan result deviations.
             Yes
      2.a(5) For Windows-based components, FDCC/USGCB secure configuration
             settings fully implemented and any deviations from FDCC/USGCB baseline
             settings fully documented.
             Yes
      2.a(6) Documented proposed or actual changes to hardware and software
             configurations.
             Yes
      2.a(7) Process for timely and secure installation of software patches.
             Yes

 Section 3: INCIDENT RESPONSE AND REPORTING


3.a. The Agency has established and is maintaining an incident response and reporting
     program that is consistent with FISMA requirements, OMB policy, and applicable
     NIST guidelines. Although improvement opportunities may have been identified by the
     OIG, the program includes the following attributes:
      3.a(1) Documented policies and procedures for detecting, responding to and
             reporting incidents.
             Yes
             Comments: SSA can improve its incident response and reporting program
             by establishing additional guidance on reporting incidents to the Office of the
             Inspector General (OIG) and law enforcement.
      3.a(2) Comprehensive analysis, validation and documentation of incidents.
             Yes
      3.a(3) When applicable, reports to US-CERT within established timeframes.
             Yes

                                           B-3
      3.a(4) When applicable, reports to law enforcement within established timeframes.
             No
             Comments: SSA does not have an established timeframe for reporting
             incidents to law enforcement or the OIG. Additionally, SSA did not report
             any PII incidents to OIG due to an incorrect email address in its system.
      3.a(5) Responds to and resolves incidents in a timely manner, as specified in Agency
             policy or standards, to minimize further damage.
             Yes
             Comments: SSA reports security incidents to the United States Computer
             Emergency Readiness Team timely. However, SSA has not established a
             timeframe to report security related incidents to law enforcement and the
             OIG. In addition, OIG did not receive any referrals for further
             investigation.
      3.a(6) Is capable of tracking and managing risks in a virtual/cloud environment, if
             applicable.
             Yes
             Comments: SSA does not use virtual/cloud environments.
      3.a(7) Is capable of correlating incidents.
             Yes

 Section 4: SECURITY TRAINING


4.a. The Agency has established and is maintaining a security training program that is
     consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
     Although improvement opportunities may have been identified by the OIG, the
     program includes the following attributes:
      4.a(1) Documented policies and procedures for security awareness training.
             Yes
      4.a(2) Documented policies and procedures for specialized training for users with
             significant information security responsibilities.
             Yes
      4.a(3) Security training content based on the organization and roles, as specified in
             Agency policy or standards.
             Yes
      4.a(4) Identification and tracking of the status of security awareness training for all
             personnel (including employees, contractors, and other Agency users) with
             access privileges that require security awareness training.
             No


                                           B-4
             Comments: SSA currently does not track security awareness training for
             contractors. SSA stated it would have an automated system to track security
             awareness training next fiscal year.

      4.a(5) Identification and tracking of the status of specialized training for all
             personnel (including employees, contractors, and other Agency users) with
             significant information security responsibilities that require specialized
             training.
             No
             Comments: SSA was not able to provide a comprehensive list of contractors
             with significant information security responsibilities. Therefore, we were
             unable to test this area.

 Section 5: POA&M


5.a. The Agency has established and is maintaining a POA&M program that is consistent
     with FISMA requirements, OMB policy, and applicable NIST guidelines and tracks
     and monitors known information security weaknesses. Although improvement
     opportunities may have been identified by the OIG, the program includes the following
     attributes:
      5.a(1) Documented policies and procedures for managing IT security weaknesses
             discovered during security control assessments and requiring remediation.
             Yes
      5.a(2) Tracks, prioritizes and remediates weaknesses.
             Yes
      5.a(3) Ensures remediation plans are effective for correcting weaknesses.
             Yes
      5.a(4) Establishes and adheres to milestone remediation dates.
             Yes
      5.a(5) Ensures resources are provided for correcting weaknesses.
             Yes
      5.a(6) Program officials and contractors report progress on remediation to CIO on
             a regular basis, at least quarterly, and the CIO centrally tracks, maintains,
             and independently reviews/validates the POA&M activities at least
             quarterly.
             Yes

 Section 6: REMOTE ACCESS MANAGEMENT




                                          B-5
6.a. The Agency has established and is maintaining a remote access program that is
     consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
     Although improvement opportunities may have been identified by the OIG, the
     program includes the following attributes:
      6.a(1) Documented policies and procedures for authorizing, monitoring, and
             controlling all methods of remote access.
             Yes
      6.a(2) Protects against unauthorized connections or subversion of authorized
             connections.
             Yes
      6.a(3) Users are uniquely identified and authenticated for all access.
             Yes
      6.a(4) If applicable, multi-factor authentication is required for remote access.
             Yes
      6.a(5) Authentication mechanisms meet NIST Special Publication 800-63 guidance
             on remote electronic authentication, including strength mechanisms.
             Yes
      6.a(6) Defines and implements encryption requirements for information
             transmitted across public networks.
             Yes
      6.a(7) Remote access sessions, in accordance to OMB M-07-16, are timed-out after
             30 minutes of inactivity after which re-authentication are required.
             Yes

 Section 7: IDENTITY AND ACCESS MANAGEMENT


7.a. The Agency has established and is maintaining an identity and access management
     program that is consistent with FISMA requirements, OMB policy, and applicable
     NIST guidelines and identifies users and network devices. Although improvement
     opportunities may have been identified by the OIG, the program includes the following
     attributes:
      7.a(1) Documented policies and procedures for account and identity management.
             Yes
      7.a(2) Identifies all users, including federal employees, contractors, and others who
             access Agency systems.
             Yes
      7.a(3) Identifies when special access requirements (e.g., multi-factor authentication)
             are necessary.


                                           B-6
             Yes
      7.a(4) If multi-factor authentication is in use, it is linked to the Agency's PIV
             program where appropriate.
             Yes
      7.a(5) Ensures that the users are granted access based on needs and separation of
             duties principles.
             Yes
             Comments: We identified some weaknesses with SSA’s process to ensure
             that users are granted access based on need and the separation of duties
             principles.
      7.a(6) Identifies devices that are attached to the network and distinguishes these
             devices from users.
             Yes
             Comments: We identified some weaknesses with SSA’s process to identify
             devices attached to its network.
      7.a(7) Ensures that accounts are terminated or deactivated once access is no longer
             required.
             Yes
             Comments: We identified some weaknesses with SSA’s process to ensure
             that accounts are terminated or deactivated once access is no longer
             required.
      7.a(8) Identifies and controls use of shared accounts.
             Yes
             Comments: SSA stated that it does not allow users to share accounts.

 Section 8: CONTINUOUS MONITORING MANAGEMENT


8.a. The Agency has established an enterprise-wide continuous monitoring program that
       assesses the security state of information systems that is consistent with FISMA
       requirements, OMB policy, and applicable NIST guidelines. Although improvement
       opportunities may have been identified by the OIG, the program includes the
       following attributes:
      8.a(1) Documented policies and procedures for continuous monitoring.
             Yes
      8.a(2) Documented strategy and plans for continuous monitoring.
             Yes




                                            B-7
       8.a(3) Ongoing assessments of security controls (system-specific, hybrid, and
              common) that have been performed based on the approved continuous
              monitoring plans.
              Yes
              Comments: SSA has not implemented configuration monitoring tools for
              some of its servers.
       8.a(4) Provides authorizing officials and other key system officials with security
              status reports covering updates to security plans and security assessment
              reports, as well as POA&M additions and updates with the frequency
              defined in the strategy and/or plans.
              Yes

              Comments: There are Continuous Monitoring data not readily accessible to
              SSA’s Chief Information Security Officer.

 Section 9: CONTINGENCY PLANNING


9.a. The Agency established and is maintaining an enterprise-wide business
     continuity/disaster recovery program that is consistent with FISMA requirements,
     OMB policy, and applicable NIST guidelines. Although improvement opportunities
     may have been identified by the OIG, the program includes the following attributes:
       9.a(1) Documented business continuity and disaster recovery policy providing the
              authority and guidance necessary to reduce the impact of a disruptive event
              or disaster.
              Yes
       9.a(2) The Agency has performed an overall Business Impact Analysis (BIA).
              Yes
              Comments: SSA’s last Business Impact Analysis was conducted in 2004.
       9.a(3) Development and documentation of division, component, and IT
              infrastructure recovery strategies, plans and procedures.
              Yes
              Comments: The contingency plan for one system has remained in draft form
              since Fiscal Year 2008.
       9.a(4) Testing of system specific contingency plans.
              Yes
              Comments: SSA’s disaster recovery exercise included 19 of the Agency’s 21
              major systems and applications.
       9.a(5) The documented business continuity and disaster recovery plans are in place
              and can be implemented when necessary.


                                            B-8
             Yes
      9.a(6) Development of test, training, and exercise (TT&E) programs.
             Yes
      9.a(7) Performance of regular ongoing testing or exercising of business
             continuity/disaster recovery plans to determine effectiveness and to maintain
             current plans.
             Yes

 Section 10: CONTRACTOR SYSTEMS


10.a. The Agency has established and maintains a program to oversee systems operated on
      its behalf by contractors or other entities, including Agency systems and services
      residing in the cloud external to the Agency. Although improvement opportunities
      may have been identified by the OIG, the program includes the following attributes:
      10.a(1) Documented policies and procedures for information security oversight of
              systems operated on the Agency's behalf by contractors or other entities,
              including Agency systems and services residing in public cloud.
               Yes
      10.a(2) The Agency obtains sufficient assurance that security controls of such
              systems and services are effectively implemented and comply with federal
              and agency guidelines.
               Yes
               Comments: We found one contractor system where SSA did not comply
               with the Federal requirements for contractor system oversight.
      10.a(3) A complete inventory of systems operated on the Agency's behalf by
              contractors or other entities, including Agency systems and services
              residing in public cloud.
               No
               Comments: We found three contractor systems not included in the
               Agency’s master systems inventory. The Agency does not have any systems
               located in a public cloud.
      10.a(4) The inventory identifies interfaces between these systems and Agency-
              operated systems.
               Yes
      10.a(5) The Agency requires appropriate agreements (e.g., MOUs, Interconnection
              Security Agreements, contracts, etc.) for interfaces between these systems
              and those that it owns and operates.
               Yes
      10.a(6) The inventory of contractor systems is updated at least annually.

                                          B-9
               Yes
      10.a(7) Systems that are owned or operated by contractors or entities, including
              Agency systems and services residing in public cloud, are compliant with
              FISMA requirements, OMB policy, and applicable NIST guidelines.
               Yes
               Comments: SSA had 11 contractor systems. We tested 4 systems and
               found one contractor system where SSA did not comply with the Federal
               requirements for contractor system oversight.

 Section 11: SECURITY CAPITAL PLANNING


11.a. The Agency has established and maintains a security capital planning and investment
      program for information security. Although improvement opportunities may have
      been identified by the OIG, the program includes the following attributes:
      11.a(1) Documented policies and procedures to address information security in the
              capital planning and investment control process.
               Yes
      11.a(2) Includes information security requirements as part of the capital planning
              and investment process.
               Yes
      11.a(3) Establishes a discrete line item for information security in organizational
              programming and documentation.
               Yes
      11.a(4) Employs a business case/Exhibit 300/Exhibit 53 to record the information
              security resources required.
               Yes
      11.a(5) Ensures that information security resources are available for expenditure as
              planned.
               Yes




                                           B-10
                                                                                           Appendix C

Background and Current Security Status
The Federal Information Security Management Act of 2002 (FISMA) requires that
agencies create protective environments for their information systems. It does so by
creating a framework for annual information technology security reviews, vulnerability
reporting, and remediation planning, implementation, evaluation, and documentation. 1
In Fiscal Year (FY) 2005, the Social Security Administration (SSA) resolved the long-
standing internal controls reportable condition concerning its protection of information. 2
However, during the FY 2009 through 2011 financial statement audits, SSA’s
management of access to its systems was identified as a significant deficiency. 3 SSA
continues to work with us and Grant Thornton LLP to further improve the security and
the protection of information and information systems and resolve other issues
observed during prior FISMA reviews.

This year, the Department of Homeland Security (DHS) prepared the FY 2011 Inspector
General (IG) Federal Information Security Management Act Reporting metrics, and will
oversee agencies’ compliance with FISMA. DHS will also develop analyses for the
Office of Management and Budget (OMB) to assist in the development of the FISMA
annual report. However, OMB will be responsible for the submission of the annual
FISMA report to Congress. 4

The FY 2011 FISMA guidance, DHS Federal Information Security Memorandum 11-02,
states that the goal for Federal information security in FY 2011 is to build a defensible
Federal enterprise that enables agencies to harness technological innovation, while

1
    Pub. L. 107-347, Title III, Section 301, 44 U.S.C. § 3544(a)(1), (a)(2), and (b)(1).
2
    SSA, FY 2005 Performance and Accountability Report, p. 164.
3
  The definition of a significant deficiency for financial statement internal control is provided by the
Statement on Auditing Standards Number 115 Communicating Internal Control-Related Matters Identified
in an Audit. This Statement on Auditing Standards states a significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity's financial statements will not be prevented, or detected and corrected on a
timely basis. OMB provides the definition of a significant deficiency under FISMA. DHS FISM 11-02,
FY 2011 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, Frequently Asked Questions section, August 24, 2011, p. 8, defines a significant deficiency
as a weakness in an agency’s overall information systems security program or management control
structure, or within one or more information systems that significantly restricts the capability of the agency
to carry out its mission or compromises the security of its information, information systems, personnel, or
other resources, operations, or assets. In this context, the risk is great enough that the agency head and
outside agencies must be notified and immediate or near-immediate corrective action must be taken.
4
 OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive
Office of the President and the Department of Homeland Security (DHS), July 6, 2010.


                                                        C-1
protecting agency information and information systems. 5 To comply with the guidance,
agencies must carry out the following three activities. 6

1. Monthly Data Feeds. Each month, agencies must load data from their automated
   security management tools into DHS’ CyberScope tool for a limited number of data
   elements. The shift from the once-a-year FISMA reporting process to a monthly
   reporting of key metrics through CyberScope allows security practitioners to make
   decisions using more information─delivered more quickly than ever before.

2. Information Security Questions. Agencies must answer a set of information security
   questions in CyberScope. These questions address areas of risk and are designed
   to assess the implementation of security capabilities and measure their
   effectiveness.

3. CyberStat Review Sessions and Agency Interviews. Through CyberStat, DHS
   cybersecurity experts engage with selected agencies to help them develop focused
   action plans for improving their information security postures. For those agencies
   not selected for a formal CyberStat review, a team of Government security
   specialists will conduct interviews focused on specific threats facing each agency as
   a consequence of its unique mission.

For FY 2011, IGs must assess their agencies’ performance in 11 major FISMA
programs specified by DHS using pre-established key attributes for each program. 7 IGs
were also required to determine areas for significant improvement if any agency
programs did not have these key attributes.8 See details in Appendix B.

This report informs Congress and the public about SSA’s information security
performance and fulfills OMB's requirement under FISMA to submit an annual report to
Congress. It provides the results of an assessment of SSA’s information technology
security strengths and weaknesses and a plan of action to improve performance. DHS
requires that agencies use CyberScope to submit the annual FISMA report.




5
    DHS FISM 11-02, supra at p.1.
6
    Id. at pp.1-2.
7
 DHS, FY 2011 Inspector General Federal Information Security Management Act Reporting, Version 1.0,
June 1, 2011.
8
 The DHS-specified attributes for each program and the significant improvement examples are posted on
DHS’s CyberScope Website. The agency Chief Information Officers and IGs all report through
CyberScope.



                                               C-2
                                                                                       Appendix D

Scope and Methodology
The Federal Information Security Management Act of 2002 (FISMA) directs each
agency’s Office of Inspector General (OIG) to perform, or have an independent external
auditor perform, an annual independent evaluation of the agency’s information security
programs and practices, as well as a review of an appropriate subset of agency
systems. 1 We contracted with Grant Thornton LLP (GT) to audit the Social Security
Administration’s (SSA) Fiscal Year (FY) 2011 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the GT financial statement audit contract.
This evaluation included Federal Information System Controls Audit Manual level
reviews of SSA’s financial related information systems. GT performed an “agreed-upon
procedures” engagement using FISMA; Department of Homeland Security Federal
Information Security Memorandum 11-02, FY 2011 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management;
National Institute of Standards and Technology guidance; Federal Information System
Controls Audit Manual; and other relevant security laws and regulations as a framework
to complete the OIG-required review of SSA’s information security program and
practices and its information systems.

The results of our FISMA evaluation are based on our FY 2011 financial statement audit
and working papers related to its agreed-upon procedures engagement as well as
various audits and evaluations performed by this office and other entities. We also
reviewed SSA’s 2011 FISMA Chief Information Officer Section Report.

Our evaluation followed the Department of Homeland Security’s FY 2011 FISMA
guidance and focused on Risk Management, Configuration Management, Incident
Response and Reporting, Security Training, Plans of Action and Milestones, Remote
Access Management, Identity and Access Management, Continuous Monitoring
Management, Contingency Planning, Contractor Systems, and Security Capital
Planning.

We performed field work at SSA facilities nationwide from March to October 2011. We
considered the results of other OIG audits performed in FY 2011. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.


1
  Pub. L. No. 107-347, Title III, section 301(b), § 3545 (a)(1), (a)(2), and (b)(1), 44 U.S.C § 3545 (a)(1),
(a)(2), and (b)(1).
                                                                                      Appendix E

The Social Security Administration’s Major Systems
                                    System                                           Acronym
                        General Support Systems 1
    1   Audit Trail System                                                    ATS

    2   Comprehensive Integrity Review Process                                CIRP

    3   Death Alert Control and Update System                                 DACUS

    4   Debt Management System                                                DMS
        Enterprise Wide Mainframe & Distributed Network
    5                                                                         EWANS
        Telecommunications Services System
    6   FALCON Data Entry System                                              FALCON

    7   Human Resources Management Information System                         HRMIS

    8   Integrated Client Data Base System                                    ICDB

    9   Integrated Disability Management System                               IDMS

10      Quality System                                                        QA

11      Security Management Access Control System                             SMACS
        Social Security Administration Online Accounting and
12                                                                            SSOARS
        Reporting System
13      Security Unified Measurement System                                   SUMS

                                Major Applications 2
    1   Electronic Disability                                                 eDib
    2   Earnings Record Maintenance System                                    ERMS

    3   National Investigative Case Management System                         NICMS

    4   Recovery of Overpayments, Accounting and Reporting System             ROAR

1
  Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources, Section A.2.c, defines a “general support system” or “system” as an interconnected
set of information resources under the same direct management control which shares common
functionality.
2
  Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources, Section A.2.d, defines a “major application” as an application that requires special
attention to security due to the risk and magnitude of the harm resulting from the loss, misuse, or
unauthorized access to or modification of the information in the application.


                                                   E-1
                            System                                       Acronym
5   Retirement, Survivors, Disability Insurance Accounting System   RSDI ACCTNG

6   Supplemental Security Income Record Maintenance System          SSIRMS

7   Social Security Number Establishment and Correction System      SSNECS
8   Title II                                                        T2




                                            E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division
   Grace Chi, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Tina Nevels, Auditor
   Michael Zimmerman, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-14-11-01134.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
